TN

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a efs contact@cocklelegalbriefs.com
st. 1923
1-800-225-6964 Web Site
(402) 342-2831 www-cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-843

NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, et al.
Petitioners,

v.

KEVIN P. BRUEN, in His Official Capacity as
Superintendent of New York State Police, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE PATRICK J. CHARLES IN SUPPORT OF NEITHER PARTY in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

7993 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of July, 2021.
J am duly authorized under the laws of the State of Nebraska to administer oaths.

fa GENERAL NOTARY-State of Nebraska v. Chk
RENEE J, GOSS 9. .

erly My Comm. Exp. September 5, 2023

 

Affiant

 

Notary Public 5089
